                                 SOCIAL SECURITY

November 7, 2006

To: The Honorable Jo Anne B. Barnhart
    Commissioner


This letter transmits the PricewaterhouseCoopers LLP (PwC) Report of Independent Auditors on the audit
of the Social Security Administration’s (SSA) Fiscal Year (FY) 2006 and 2005 financial statements. PwC's
Report includes the firm’s Opinion on the Financial Statements, Report on Management's Assertion About
the Effectiveness of Internal Control, and Report on Compliance and Other Matters.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation.

PwC’s audit was made in accordance with generally accepted auditing standards, Government Auditing
Standards issued by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. The audit included
obtaining an understanding of the internal control over financial reporting and testing and evaluating the
design and operating effectiveness of the internal control. Because of inherent limitations in any internal
control, there is a risk that errors or fraud may occur and not be detected. The risk of fraud is inherent to
many of SSA’s programs and operations, especially within the Supplemental Security Income program. In
our opinion, people outside the organization perpetrate most of the fraud against SSA.

Audit of Financial Statements, Effectiveness of Internal Control, and Compliance
with Laws and Regulations

The Chief Financial Officers (CFO) Act of 1990 (P.L. 101-576), as amended, requires SSA's Inspector
General or an independent external auditor, as determined by the IG, to audit SSA's financial statements in
accordance with applicable standards. Under a contract monitored by the Office of the Inspector General
(OIG), PwC, an independent certified public accounting firm, audited SSA's FY 2006 financial statements.
PwC also audited the FY 2005 financial statements, presented in SSA's Performance and Accountability
Report for FY 2006 for comparative purposes. PwC issued an unqualified opinion on SSA's FY 2006 and
2005 financial statements. PwC also reported that SSA's assertion that its internal control over financial
reporting was operating effectively as of September 30, 2006, is fairly stated, in all material respects, based
on criteria established under OMB Circular A-123, Management’s Responsibility for Internal Control.
For FY 2006, the Statement of Social Insurance (SOSI) was added as a basic financial statement subject to
audit. No significant findings were noted during the audit of the SOSI and we applaud SSA’s effort in
preparing for this additional level of audit. In addition, SSA completed its assessment of its internal
controlover financial reporting in compliance with OMB Circular A-123 within the first year of the 3-year
time frame allowed by OMB.

OIG Evaluation of PwC Audit Performance

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality of the audit
work performed, we monitored PwC's audit of SSA's FY 2006 financial statements by:

         •   Reviewing PwC's approach and planning of the audit;

         •   Evaluating the qualifications and independence of its auditors;

         •   Monitoring the progress of the audit at key points;

         •   Examining its workpapers related to planning the audit and assessing SSA's internal control;

         •   Reviewing PwC's audit report to ensure compliance with Government Auditing Standards and
             OMB Bulletin 06-03;

         •   Coordinating the issuance of the audit report; and

         •   Performing other procedures that we deemed necessary.

PwC is responsible for the attached auditor’s report, dated November 7, 2006, and the opinions and
conclusions expressed therein. The OIG is responsible for technical and administrative oversight regarding
PwC’s performance under the terms of the contract. Our review, as differentiated from an audit in
accordance with applicable auditing standards, was not intended to enable us to express, and accordingly
we do not express, an opinion on SSA’s financial statements, management’s assertions about the
effectiveness of its internal control over financial reporting, or SSA’s compliance with certain laws and
regulations. However, our monitoring review, as qualified above, disclosed no instances where PwC did
not comply with applicable auditing standards.




                                                       Patrick P. O’Carroll, Jr.
                                                       Inspector General
                                                                                          PricewaterhouseCoopers LLP
                                                                                          Suite 900
                                                                                          1800 Tysons Boulevard
                                                                                          McLean VA 22102
                                                                                          Telephone (703) 918 3000
                                                                                          Facsimile (703) 918 3100
                                                                                          www.pwc.com




                                    Report of Independent Auditors




To the Honorable Jo Anne B. Barnhart
Commissioner
Social Security Administration

In our audit of the Social Security Administration (SSA), we found:

      The consolidated balance sheets of SSA as of September 30, 2006 and 2005, and the related
       consolidated statements of net cost, of changes in net position, and of financing and the
       combined statements of budgetary resources for the years then ended and the statement of
       social insurance as of January 1, 2006 are presented fairly, in all material respects, in
       conformity with accounting principles generally accepted in the United States of America;
      Management fairly stated that SSA’s internal control over financial reporting was operating
       effectively as of September 30, 2006.
      No reportable instances of noncompliance with the laws, regulations or other matter tested.

The following sections outline each of these conclusions in more detail.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of SSA as of September 30, 2006
and 2005, and the related consolidated statements of net cost, of changes in net position, and of
financing and the combined statements of budgetary resources for the years then ended and the
statement of social insurance as of January 1, 2006. These financial statements are the responsibility
of SSA’s management. Our responsibility is to express an opinion on these financial statements based
on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 06-03. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above and appearing on pages 124 through 150 of
this performance and accountability report, present fairly, in all material respects, the financial position
of SSA at September 30, 2006 and 2005, and its net cost of operations, changes in net position,
budgetary resources and financing for the years then ended and the financial condition of its social
insurance programs as of January 1, 2006, in conformity with accounting principles generally accepted
in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements of SSA
taken as a whole. The additional information presented on the statement of social insurance as of
January 1, 2006 is not a required part of the financial statements and is presented for purposes of
additional analysis. Such information has been subjected to the auditing procedures applied in the
audit of the financial statements and, in our opinion, is fairly stated in all material respects in relation to
the financial statements taken as a whole.

As discussed in Note 1 to the financial statements, SSA adopted Statement of Federal Financial
Accounting Standards (SFFAS) No. 27, Earmarked Funds, effective October 1, 2005. This standard
does not permit the restatement of prior periods.

As discussed in Note 17 to the financial statements, SSA adopted SFFAS No. 25, Reclassification of
Stewardship Responsibilities and Eliminating the Current Services Assessment, and SFFAS No. 26,
Presentation of Significant Assumptions of the Statement of Social Insurance: Amending SFFAS No.
25, requiring that the statement of social insurance be presented as an integral part of the basic
financial statements of the Agency. The statement of social insurance presents the actuarial present
value of the Agency’s estimated future income to be received from or on behalf of the participants and
estimated future costs to be paid to or on behalf of participants during a projection period sufficient to
illustrate the long-term sustainability of the social insurance program. In preparing the statement of
social insurance, management considers and selects assumptions and data that it believes provide a
reasonable basis for the assertions in the statement. However, because of the large number of factors
that affect the statement of social insurance and the fact that future events and circumstances cannot
be known with certainty, there will be differences between the estimates in the statement of social
insurance and the actual results, and those differences may be material.

REPORT ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS OF INTERNAL
CONTROL

We have also examined management’s assertion, included in the accompanying Federal Manager's
Financial Integrity Act (FMFIA) Assurance Statement on Page 60 of this Performance and
Accountability Report (PAR), that SSA’s internal control over financial reporting was operating
effectively as of September 30, 2006 based on criteria established under OMB Circular A-123,
Management's Responsibility for Internal Control. We did not test all internal controls relevant to the
operating objectives broadly defined by the Federal Managers’ Financial Integrity Act of 1982. SSA’s
management is responsible for maintaining effective internal control over financial reporting. Our
responsibility is to express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants (AICPA), the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States, and OMB
Bulletin No. 06-03 and, accordingly, included obtaining an understanding of the internal control, testing
and evaluating the design and operating effectiveness of the internal control, and performing such
other procedures as we considered necessary in the circumstances. We believe that our examination
provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may occur
and not be detected. Also, projections of any evaluation of the internal control to future periods are
subject to the risk that the internal control may become inadequate because of changes in conditions,
or that the degree of compliance with the policies or procedures may deteriorate.




                                                                                                       (2)
In our opinion, management’s assertion that SSA’s internal control over financial reporting was
operating effectively as of September 30, 2006, is fairly stated, in all material respects, based on
criteria established under OMB Circular A-123.

We did note other matters involving the internal control and its operation that we will communicate in a
separate letter.

INTERNAL CONTROL RELATED TO KEY PERFORMANCE INDICATORS

With respect to internal control relevant to data that support reported performance measures on pages
17, 18 and 19 of this performance and accountability report, we obtained an understanding of the
design of significant internal control relating to the existence and completeness assertions, as required
by OMB Bulletin No. 06-03. Our procedures were not designed to provide assurance on the internal
control over reported performance measures and, accordingly, we do not express an opinion on such
control.

REPORT ON COMPLIANCE AND OTHER MATTERS

The management of SSA is responsible for compliance with laws and regulations. As part of obtaining
reasonable assurance about whether the financial statements are free of material misstatement, we
performed tests of compliance with certain provisions of laws and regulations, noncompliance with
which could have a direct and material effect on the determination of financial statement amounts and
certain other laws and regulations specified in OMB Bulletin No. 06-03, including the requirements
referred to in the Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our
tests of compliance to these provisions, and we did not test compliance with all laws and regulations
applicable to SSA. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance with laws and
regulations discussed in the preceding paragraph, exclusive of FFMIA, or other matters that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 06-03 as of
September 30, 2006.

Under FFMIA, we are required to report whether SSA’s financial management systems substantially
comply with the Federal financial management systems requirements, applicable Federal accounting
standards, and the United States Government Standard General Ledger at the transaction level. To
meet this requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed no instances in which SSA’s financial management systems did not
substantially comply with the three requirements discussed in the preceding paragraph as of
September 30, 2006.

OTHER INFORMATION

The Management’s Discussion and Analysis (MD&A) included on pages 6 to 66, and Required
Supplementary Information (RSI) included on pages 1 and 2 and 157 and 158 to 173 of this
performance and accountability report are not a required part of the financial statements but are
supplementary information required by the Federal Accounting Standards Advisory Board and OMB
Circular No. A-136, Financial Reporting Requirements. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of the MD&A and RSI. However, we did not audit the information and express no opinion
on it.




                                                                                                  (3)
Our audit was conducted for the purpose of forming an opinion on the financial statements of SSA
taken as a whole. The Schedule of Budgetary Resources, included on page 157 of this PAR, is not a
required part of the financial statements but is supplementary information required by OMB Circular
No. A-136, Financial Reporting Requirements. This information and the consolidating and combining
information included on pages 152 to 156 of this performance and accountability report are presented
for purposes of additional analysis and are not a required part of the financial statements. Such
information has been subjected to the auditing procedures applied in the audit of the financial
statements and, in our opinion, are fairly stated in all material respects in relation to the financial
statements taken as a whole.

The other accompanying information included on pages 3 to 5, 67 to 123, 174 to 176, and 181 to the
end of this PAR, is presented for purposes of additional analysis and is not a required part of the
financial statements. Such information has not been subjected to the auditing procedures applied in the
audit of the financial statements and, accordingly, we express no opinion on it.

                                                *****

This report is intended solely for the information and use of management and the Inspector General of
SSA, OMB, the Government Accountability Office and Congress and is not intended to be and should
not be used by anyone other than these specified parties.




November 7, 2006




                                                                                                (4)
